Kf/l-’/S
^ (Hi- <y6 oJt 'w
No.
Supreme Court, U.S.
FILED

;o;
IN THE

— OFFICE OF THE CLFRX

SUPREME COURT OF THE UNITED STATES

(La Xm

— PETITIONER

(Your Name)
vs.

C(7^ oj' Me/J

^

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

LIm-W

Shules

CiyuiA 0- AppWs fur

Civcuxt

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

( Jw\ Xl/v
(Your Name)

\/0 11 frtTaut

gH

(Address)

A/oaa) YoVk^ , AJevO

i

I ^^-3

(City, State, Zip Code)
fWflu U OT\

(Phone Number)

QUESTIONS PRESENTED
After a diagnosis and an assigned test in Weill Cornell hospital,
petitioner Chen Xu’s eight years old son urinate blood for two weeks. The
hospital then false imprisonment Chen Xu’s family in the hospital room
along with New York City Administration for Children’s Service (“ACS
New York”) for three days and reported to Family Court New York, the
hospital found “an abandoned child, nationality unknown, parent
unknown”.
With a blank court order, ACS New York took away HX with only a text
to Chen Xu “I have your son”. HX being false imprisonment in foster care
since then, to avoid Chen Xu found him, the agency changed his name in
the system.
To punish Chen Xu’s lawsuit in Federal Court, the agency injected HX
repeatedly vaccines and extracted three of HX’s well molar teeth. The
agency written threatened Chen Xu to be “very careful from being arrested
to miss your son’s court date”. Chen Xu got arrested for three times with no
reason and evidence. The lawsuits in state courts harass Chen Xu to
prevent the suing rights being fulfilled and prevent the family reunion.
The District Court for the Southern District of New York dismissed the
case pursuant Younger v. Harris, 401 U.S. 37 (1971), the Second Circuit
affirmed the dismissal pursuant Pillay v. INS, 45 F.3d 14,17(2d Cir.1995),
and denied mandamus petition pursuant Cheney v. U.S. Dist. Ct. for
D.C.,542 U.S. 367, 380-81(2004).
The questions presented are:
l.On Feb 27,2020, when ACS New York’s agency extracted HX’s molar
teeth as punishment, the Second Circuit dismissed the .case without '
evaluate the case and without finish the arranged court proceeding. When
the new child abuse issue happened, should Court of Appeals for the
Second Circuit finished certain assigned court proceedings to protect the
due process rights and substantive rights of the petitioner and the public
interest?
2.The New York City Administration Children’s Service (ACS New York),
hold petitioner’s child as hostage, abuse Family Court and criminal court
proceeding as method to prevent petitioner fulfill Constitutional rights,
whether Younger v. Harris, 401 U.S. 37 (1971) should be revisited?
3.When the child’s custody was temporary moved to state and the child
being mistreated in foster care, no governmental remedy available, can
birth parent sue on behalf of the child to help the child get remedy?
4.Whether Chen Xu should get remedy pursuant 42 U.S.C. § 1983?

LIST OF PARTIES

[, ] All parties appear in the caption of the case on the cover page.
[v^ All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Petitioner Chen Xu
Respondents are City of New York, New York City Administration for
Children’s Services (“ACS New York”), Family Court New York

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

1

CONCLUSION

10

INDEX TO APPENDICES
APPENDIX A

APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

DeUVm <f ^

pecTSvftn

oj-4t\s. UmW

PecAkn

gp^4

cf 4j>pej*J$ ■forjU. £eouil OMuSi^

P\ Strict (WV for-fV

AAJ

UkW "r^-S (Wt cj Appels fsr4k_ Wm>( Oc^ fn

OrdeJr cj- j'OdjMj (jwur\ NjA fev4__
Mo-^Vv +° reconk <iefccKw\ "Eo. &oao
Cn OcY n,iolf •f0 CwYa- AppedsftfHit

(Xxd&

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Younger v. Harris, 401 U.S. 37 (1971)...........................................

6

Monell v. Department ofSocial Services, 436 U.S. 658 (1978) ...

6

Pillay v.INS, 45 F.3d 14,17(2d Cir.1995)........................................

7

Lozman v City ofRiviera Beach,_U.S._,138 S. Ct. 1945(2018)

8

STATUTES AND RULES
The First Amendment of the U.S. Constitution

5

The Fourth Amendment of the U.S. Constitution,

5

The Fourteenth Amendment of the U.S. Constitution,
42 U.S.C. § 1983

5
6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[\/ For

cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[\/ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
fph 3-7 , 2-02-0
was
[ ] No petition for rehearing was timely filed in my case.
is/ A timely petition for rehearing wa^denied by the United States Court of
Appeals on the following date:
__olfl4 of fop-P ______, and a copy of the
order denying rehearing appears at Appendix_
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The First Amendment to the United States Constitution provides, in
relevant part, “Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or abridging the freedom
of speech, or of the press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.”
The Fourth Amendment to the United States Constitution provides, in
relevant part, “the right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures, shall not
be violated, and no warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.”
The Fourteenth Amendment to the United States Constitution provides, in
relevant part, “All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United States and of
the state wherein they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United
States! nor shall any state deprive any person of life, liberty, or property,
without due process of law! nor deny to any person within its jurisdiction
the equal protection of the laws.
42 U.S.C. § 1983 provides, in relevant part “Every person who, under color
of any statute, ordinance, regulation, custom, or usage,

ieieie

subjects, or

causes to be subjected, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any rights, privileges,
or immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding
for redress

3

STATEMENT OF THE CASE
I.HX’s medical treatment and the false imprisonment in hospital
My name is Chen Xu, after got my doctor’s degree in law, I work as a
legal professional for years. My son HX was born in the U.S. when I worked
for Yale as a researcher in 2012.
HX got hurt in China in 2018 and there after the infection caused
Infective Endocarditis(IE) and Nephrosis. For his better medical treatment,
Chen Xu made the appointment with his former primary in Yale, took him
back to the United States in 2019.
On Feb 5,2019, HX was diagnosis UTI in CityMD and on Feb 7,2019,
Weill Cornell Hospital diagnosis he has Hydronephrosis. We then rent live
in New York waiting for the Urologist’s further evaluation. On March
1,2019, the Urologist in Weill Cornell Hospital assigned HX a test named
VCUG.I agreed and paid about 10000 dollars for the tests and visits. Right
after the test, HX urinated blood in the doctor’s office and urinate cloudy
for two weeks. The hospital requested me took him back for tests for four
times and charged 2000 dollars extra, but the situation didn’t get better.
On March 15,2019, both New Jersey and New York child protective
agency received the hospital’s report for HX’s educational neglect.
On March 15,2019 Friday night 8^20 pm, ACS New York case worker
came directly to my apartment, intend to tear up HX’s passport and
medical records, use ambulance forced my parents, HX and I to Weill
Cornell Hospital, locked us together in a small hospital room with
securities changed every eight hours from March 15,2019 to March 18,2019
8:00PM. My attorney came tried to save my family out of the false
imprisonment and requested the court order they used to keep my family,
almost got hit and got the response “nobody cares about court order, ACS
will take care”.
II.

The bad faith of the Family Court Proceeding

According to Family Court Transcript, on March 18,2019 while my
family were still locked together in the hospital, the hospital reported to
ACS New York and Family Court New York “an abandoned child was found
in hospital, nationality unknown, parent unknown.”
Because of lack of evidence and conflicts with their own reports, ACS
New York’s petition to family court doesn’t even fit the Family Court Act
requirement.
According to the New York State Court system, since March 18,2019,
ACS New York use a blank court order to continue false imprisonment HX
in Weill Cornell Hospital room. On March 22,2019, HX was taken away
4

from the hospital with only a text to me by the ACS case worker Tramara
Cheeseboro “I have your son”.
The case worker Tramara Cheeseboro changed HX’s name in ACS’
system to avoid me contact my son. According to Tramara Cheeseboro’s
report, “Chen XU doesn’t speak English nor Chinese”, “she speaks an
unknown language that ACS cannot understand or find translator to her”,
and intend to spread in the ACS system and translator system, “Chen XU
has Mechosen and has so many people in and out their apartment”, leading
people doubt my position.
Therefore, ACS’ staffs were not allowed to talk to me, I cannot get
evidence, legal support, not allowed to speak or hand in evidence. Not able
to visit my son. An assigned attorney tried to take away the original
medical records to ACS, I finally manage to get the documents back with
the court staff’s help.
III. The Federal Court Proceedings
On April 19,2020, through the New York Court system, I finally got the
blank court order ACS used to keep HX. My visitation to my son then being
terminated by the foster care agency Forestdale.1
On April 26,2020, after two weeks suspend of visitation, I filed the
lawsuit against ACS New York in the District Court for the Southern
District of New York.
On April 29,2019, three days after I filed the lawsuit, without medical
authorization from me, HX was injected repeatedly vaccines Chicken Pox
as revenge to my lawsuit. The United States kids have this vaccine two
times in lifetime, while HX was injected two times in three months. This
injection directed to HX’s previous medical condition, according to ACS’s
medical records, HX’s heart beats raise up to 127 and got rashes for three
days, then finally got a chance to survive.
On May 17,2019, as ACS New York is the agency of City of New York,
District Court for the Southern District of New York ordered City of New
York as respondent.
On May 17,2019, I filed the amended complaint requested jury trail,
alleges nine causes of action against City of New York pursuant First
Amendment to the United States Constitution, the Fourth Amendment to
the United States Constitution, the Fourteenth Amendment to the United
States Constitution (i) false imprisonment (along with Weill Cornell
Hospital), (ii)defamation, (iii) damage to substantive rights, (iv) damage to
due process rights, (v) abuse child, (vi) hurt of parental rights, (vii) the
right to get equal treatment, (viii) abridge the freedom of speech to deprive
App.l5a
5

the right to sue, (ix) unreasonable searches and seizures.
On June 14,2019, during the conference proceeding, ACS New York
handed to court a hand writing version blank court order. With three
months adjust, the reason why HX should be moved to foster care still
cannot fit Family Court Act and Social Service Law requirement, also has
conflict with ACS’ own report.
On June 28,2019, I filed the preliminary injunction to the District Court
of the Southern New York. Moved the court release HX from the false
imprisonment so that the child can be well protected by family members.
The preliminary injunction didn’t being reviewed.
On August 27,2019, the case worker Osbourne in Foster care requested
my consent for HX’s medical treatment. Since I heard she talked about
extracted HX’s teeth with her colleague, I refused to sign blank medical
treatment consent documents. Meanwhile reported to district court the
agency intent to extracted my son’s molar teeth. Move the court grant the
preliminary injunction.
On September 9,2019, the agency of Forestdale extracted one of HX’s
well molar tooth as punishment. And adjusted the medical records. I filed
the motion to federal court move the court grant an order of protection to
avoid Dr. Tarrab, David, Dr. Merra Rathi to treated or approach any child
before the NYU dentistry handed in the full original medical records to the
court for further evaluation.
On September, I kept receiving written threaten from Forestdale to be
“very careful from being arrested to miss your son’s court date”.
On October 10,2019, my visitation to HX being terminated by Family
Court New York. I then filed the writ of Mandamus in Court of Appeals for
the Second Circuit. As the agency trying to extracted HX’s molar teeth, I
respectfully move the second circuit grant the Mandamus requested the
district court to release HX and review the case. Docket Number 19-3275.
On Oct 17,2019, City of New York filed letter to reply the motion,
promise “nobody wants to extract the boy’s teeth.” 2
On Nov 8,2019 without fact finding trail proceeding, district court
entered a summary judgement. Grant the final order to dismiss the case
deems the federal court lack the Jurisdiction from exercising state court
proceeding pursuant Younger v. Harris, 401 U.S. 37(1971). My false
imprisonment issues pursuant 42 U.S.C. § 1983 also being dismissed
pursuant Monell v. Department of Social Services, 436 U.S. 658 (1978),
since “Plaintiff fails to allege what specific policies and procedures ACS
allegedly violated, and how those alleged violations amounted to a
2 App.26a
6

violation of her federal rights”.3
The key fact shows the bad faith of the proceeding in State Court is the
hospital and ACS New York fake reported to Family Court New York on
March 18,2019 on purpose to cover their mistake, while they still false
imprisonment my family in their hospital. Apparently, ACS New York
knows I am innocent.
The exception of Younger abstention is the prosecution is in bad faith, or
the prosecution is part of some pattern of harassment against an
individual. The transcript of Family Court New York and the evidence
listed in Preliminary Injunction can clearly confirmed the court proceeding
in Family Court New York is created to cover the false imprisonment issues
in hospital. And HX lost one of the molar tooth, the irreparable harm listed
in preliminary injunction has already occurred.
On Nov 19,2019, I filed a notice of appeal to the Court of Appeals for the
Second Circuit re the final order of the district court. Docket Number
19-3864.
On Nov 20, 2019, I filed the motion to consolidate review the case
19-3275,19-3864, move the court grant the interim relief to release HX
from false imprisonment to prevent further hurt.
On Dec 3,2019, Court of Appeals for the Second Circuit issued the order
to consolidated review 19-3275 with 19-3864.
On Jan 2,2020, the respondent arranged the reply brief date to be April
2,2020.
On Feb 14,2020, the agency Forestdale extracted two of HX’s molar teeth
as punishment. Then arrested my mom and I in prison for four days, force
us to do the finger print admitted I broke the agency’s glass. Even though
the video and the police officer’s cap said my mom and I didn’t do anything.
The criminal lawsuit was brought in Queens Criminal Court to trap me
since then.
On Feb 27,2020, I managed to being released from criminal court, filed
the motion to Court of Appeals for the Second Circuit move the court
release HX, as HX lost two more molar teeth in foster care the irreparable
hurt occurred again.
On Feb 27,2020, the court of appeals for the Second Circuit denied the
mandamus petition as Appellant has not met the standard for mandamus
relief, and further ordered dismissed the consolidated appeal because
Appellant’s challenge to the district court’s dismissal of her amended
complaint present “no arguably meritorious issue for our consideration”.
3 App.l2a
7

See Pillay v.INS,45 F.3d 14,17(2d Cir.1995) In light of the court’s
disposition of the mandamus proceedings and appeal, the court ordered
that Appellant’s motions are denied as moot.4
On March 11,2020, I filed the motion to reconsideration En Banc since
the arranged court proceeding haven’t finished, respectfully moved the
court’s reconsideration to let the defendant file the reply brief to protect my
due process rights and substantive rights. Meanwhile, as the state court
proceeding were set to prevent me fulfill constitutional rights, moved the
second circuit review my case to get me a chance for remedy pursuant
Lozman v City of Riviera Beach,_U.S._,138 S. Ct. 1945(2018)5
The Second Circuit denied the motion on April 27,2020. I get the notice
on May 5,2020 with the District Court ECF.
IV.

The criminal case set to Chen Xu

On June 5,2020, 6AM, my landlord along with a woman came to my
apartment requested for 15000 dollars extra for June’s rent, after being
rejected, the woman robbed my passport and run away. Ten minutes later,
several police officers came to my apartment said they received a report, I
pushed their colleague. I then being arrested again with no reason. The
case still pending in Criminal Court in Manhattan.
On July 22,2020, Family Court New York denied my motion to dismiss
the case, although all the court proceeding has already been finished, the
doctor’s testimony and all the medical records, doctors’ note and
prescription can prove the accuse to me doesn’t exist.
Petitioner’s eight years old boy lost three well molar teeth in foster care,
and as punishment to petitioner’s lawsuit, the agency didn’t allow Chen Xu
contact her son for over seven months. The innocent people being tortured
like this, but the petitioner never get a chance to let the case being fully
evaluated.
Without due process and legal justice system’s protection, this case can
happen to any family in the United States. Behind the issues is us, the
hurt direct to our children and family, pray for the review from the
Supreme Court of the United States.

4 App.2a
5 App.l8a
8

REASONS FOR GRANTING THE PETITION
l.The issue of the case related to federal court jurisdiction. The federal
court abstained its jurisdiction with constitutional issues in a well
prepared bad faith state court proceeding.
In the Younger v. Harris,401 U.S. 37(1971), the Supreme Court of the
United States hold that the federal court can hear the case pending in the
state court when “the defendant will suffer an irreparable injury that is
both great and immediate.”
Three exceptions were summarized to Younger abstention, the
prosecution is in bad faith, the prosecution is part of some pattern of
harassment against an individual, the law being enforced is utterly and
irredeemably unconstitutional.
The evidence listed in the case fits all three exceptions of the Younger
abstention. The City of New York’s only argument is the federal court lack
the jurisdiction with the pending state court proceeding, the District Court
of Southern New York affirmed it with a summary judgement.
The agency of City of New York Forestdale then dare to written lie to
Court of Appeals for the Second Circuit they “will not do anything to the
child’s teeth”, then extracted two of my boys’ molar teeth as punishment
under Court of Appeals’jurisdiction.
The contempt directed to the justice system, call for the review of the
Supreme Court of the United States.
2.The case related to United States kids’ medical treatment rights and
safety. HX first got hurt in China, after the treatment, got back to the U.S.
for further evaluation.
The doctor in the U.S. has already made the diagnosis. After the child
urinate blood, to cover the hospital’s mistake, only with an unknown
hospital staff’s false report and an ACS New York case worker’s false
report, Chen Xu and HX being false imprisonment in the hospital, HX
being taken away to foster care without any procedure, unreasonable
arrests and written threaten were send to Chen XU to “very careful from
being arrested to miss your son’s court date”.
With the court proceeding going on, ACS New York handed in two
different versions of HX’s medical records to court, Chen Xu’s attorney
being threatened, the child’s well molar teeth being extracted as
punishment to Chen Xu’s lawsuit.
The issue of the case directed to the trust system between doctors and
patients, related to the U.S. children’s well medical treatment rights and
U.S. family’s equal rights for reasonable medical second opinion being
protected by the Fourteenth Amendment of the United States Constitution.
Call for the Supreme Court’s review.
3.ACS New York use Family Court New York’s blank court order to false
imprisonment HX, after the lawsuit in federal court, ACS New York hand
writing the court order with the reason has conflict with their own reports.
The first time I showed the blank court order in a non-profile organization,

•)

■*

V

all the attorneys being shocked. I saw one of the attorneys hold the court
order, hand shaking. They asked me since when ACS began chasing legal
professionals?
I don’t know how to answer. Maybe on March 15,2019, when one of the
ACS case worker said to her colleague in my apartment “She has medical
records and she paid the rent on her own”, got the answer “never mind,
let’s try”, maybe on March 18,2019, my attorney in the hospital tried to
save my family from the false imprisonment and requested the hospital to
show the court order why they locked people in their hospital room, get the
response “who cares court order, ACS will take care”.
The justice system is being threatened. All the legal professionals, well
trained doctors, parents who know the case, are watching and expecting
the Supreme Court’s review.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

10

